• "W

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Mark Rudolph Arsenio Reed
(Your Name)

— PETITIONER

VS.
Robert Toole, Warden/Director

_RESPONDENT(S)

PROOF OF SERVICE
j Mark R. A. Reed
January ,
8

________________ , do swear or declare that on this date,
20 21f as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Clerk of the Supreme Court of the United States, Washington D.C. 20543
Offiro of Law, 40 Capital Square, S.W., Atlanta, Ga. 30334-1300

(Megan Hill)

Robert Toole, 300 Avenue, South , Riedsville Georgia 30453
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

January 8

, 20JL1
- A-dJ&t
(Signature)

's
C,

^

DECLARATION
UNDER PENALTY OF PERJURY

In accordance with USCA section 1746, "Wherever, under any law of
the United States or under any rule, regulation, order, or requirement
made pursuant to law, any matter is required or permitted to be
supported, evidenced, established, or proved by sworn declaration, ...
such matter may, with like force and effect, be supported, evidenced,
established, or proved by the unsworn declaration, ... or statement, in
writing of such person which is subscribed by him, as true under
penalty of perjury, and dated..."Title 28 USCA section 1746
Having produced, read and fully understanding of the above and being
executed in the United States:
I, Mark R. A. Reed, do declare under the penalty of perjury that the
foregoing application for In forma Pauperis and attached inmate
account statement is true and correct.
Executed: This the 8th day of January, 2021

Signe

